Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK,
SS:

83673

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 14th day of October 2020 deponent served 3 copies of the within
PETITION FOR A WRIT OF CERTIORARI
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Dale R. Cockrell
Moore, Cockrell, Goicoechea & Johnson, P.C.
145 Commons Loop, Suite 200
Kalispell, MT 59901
(406) 751- 6000

Jory C. Ruggiero
Western Justice Associates, PLLC
303 West Mendenhall Street,
Bozeman, Montana, 59715
(406) 587-1900
Attorneys for Appe//ees

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on October 14, 2020, pursuant to Supreme

Court Rule 29.5(c). All parties required to be serv,~have been servl)

d"17MIJ e,.-J,

r\..
~ - -.
I

Howard Daniels
Sworn to me this

October 14, 2020
Jasmine Williams
Notary Public, State of New York
No.010S6101366
fied in Queens County
n Expires September16, 2023

Case Name: Gateway Hospitality v. Philadelphia
Indemnity
Docket/Case No.

